IN THE SUPREME COURT OF THE UNITED STATES
PITCH, MARION E., AS PERSONAL REPRESENTATIVE
OF THE ESTATE OF ANTHONY S. PITCH, ET AL.,
Petitioner
vs.

No:

20-0224

USA
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

JEFFREY B. WALL
Acting Solicitor General
Counsel of Record
September 23, 2020
cc:
JOSEPH J. BELL
BELL & SHIVAS
150 MINERAL SPRINGS DRIVE
P. O. BOX 220
ROCKAWAY, NJ 07866

